Office of Inspector General

                    General  



      Semiannual Report 

       to the Congress 

             Covering the Period 

    April 1, 2012 — September 30 2012 





FEDERAL MARITIME COMMISSION 

                              FEDERAL MARITIME COMMISSION
                                   Washington, DC 20573


                                       October 29, 2012

Office of Inspector General




Dear Chairman Lidinsky and Commissioners:

        The attached report is submitted in accordance with Section 5 of the Inspector General
Act of 1978, as amended. It summarizes the activities of the Office of Inspector General (OIG)
for the period April 1, 2012, to September 30, 2012. The Act requires that you transmit the
report to the appropriate Congressional committees within 30 days of receipt. Your transmittal
should also include any comments you consider appropriate and other statistical tables and
reports required by law.

        During this period we issued one evaluation of an FMC operation, began three other
audits / evaluations and commenced planning for a fourth evaluation. Also during the reporting
period, the OIG processed five hotline complaints. The OIG opened one investigation and
referred one matter to prosecutorial authorities.

       In addition to these audit and investigative activities and outcomes, the OIG responded to
two congressional inquiries for information and three Freedom of Information Act requests from
the public. We continued to respond to consumers who were victimized as part of an internet
scam operation using FMC indicia and worked with the agency’s Office of the General Counsel
to issue Commission regulations pertaining to IG reporting requirements as required by the
Dodd-Frank Wall Street Reform and Consumer Protection Act (Public Law 111-203).

        As of September 30, 2012, there were 14 recommendations between 22 and 78 months
old. The oldest recommendation, to implement a paperless bill-paying process, is a “green”
alternative to the current paper based process that would be more efficient for agency staff and
its customers.

        I look forward to working with you in our ongoing efforts to promote economy and
efficiency in agency programs.


                                                    Respectfully submitted,




                                                    /Adam R. Trzeciak/
                                                    Inspector General
                                               TABLE OF CONTENTS

Transmittal Letter

 
EXECUTIVE SUMMARY ............................................................................................................ 1 


BACKGROUND ............................................................................................................................ 1 


AUDITS/EVALUATIONS............................................................................................................. 3 
    Summary of Audits and Reviews Issued During the Current Period ......................................... 3 
    Draft Audits or Reviews ............................................................................................................. 4 
    Reports with Fieldwork in Progress............................................................................................ 4 
    Planned Audits or Reviews ......................................................................................................... 5 


INVESTIGATIVE ACTIVITIES ................................................................................................... 5 


OTHER OIG ACTIVITIES ............................................................................................................ 6 


SUMMARY OF INSPECTOR GENERAL REPORTING REQUIREMENTS .......................... 12 
    TABLE I - Inspector General Issued Reports with Questioned Costs...................................... 13 
    TABLE II –Inspector General Issued Reports with Recommendations that Funds be Put to
               Better Use ............................................................................................................ 14 
                                  EXECUTIVE SUMMARY 

        This Semiannual Report to the Congress summarizes the activities and accomplishments
of the Federal Maritime Commission (FMC or Commission), Office of Inspector General (OIG)
for the period April 1, 2012 through September 30, 2012. During this period we issued one
evaluation of an FMC operation, began three other audits / evaluations and commenced planning
for a fourth evaluation.

        During this reporting period, the OIG received five complaints. We responded to two of
the complaints and forwarded three complaints to the appropriate FMC program areas for
disposition or to other agency OIGs or programs with jurisdiction over the subject matter of the
complaint. The OIG opened one investigation and referred one matter to prosecutorial
authorities during this period.

        In addition to these audit and investigative activities and outcomes, the OIG responded to
two congressional inquiries for information and responded to three Freedom of Information Act
requests from the public. We continued to respond to consumers who were victimized as part of
an internet scam operation using FMC indicia and worked with the agency’s Office of the
General Counsel to issue Commission regulations pertaining to IG reporting requirements as
required by the Dodd-Frank Wall Street Reform and Consumer Protection Act (Public Law 111-
203).


                                      BACKGROUND 

        The FMC is an independent agency responsible for the regulation of ocean borne
transportation in the foreign commerce of the United States. The principal statutes or statutory
provisions administered by the Commission are: the Shipping Act of 1984, as amended by the
Ocean Shipping Reform Act of 1998; the Foreign Shipping Practices Act of 1988; and Section
19 of the Merchant Marine Act of 1920.




        April 1, 2012 – September 30, 2012                                        Page 1
       The FMC is headed by five commissioners nominated by the President and confirmed by
the Senate, each serving five-year terms. For FY 2012, the Commission was appropriated $24.1
million and is authorized 132 full-time equivalent positions.

       Although the majority of FMC personnel are located in Washington, D.C., the
Commission also maintains a presence in Los Angeles, Seattle, New York, New Orleans,
Houston, and South Florida through area representatives who serve the major ports and
transportation centers within their respective geographic areas. In addition, one at-large area
representative operates from Washington, D.C.

       The FMC/OIG was established in 1989 by the Inspector General Act of 1978, as
amended (5 U.S.C. app.). The OIG is an independent audit and investigative unit headed by an
inspector general (IG) who reports directly to the FMC Commissioners. To aid the FMC in
accomplishing its mission in FY 2012, the OIG is provided three full-time staff and a budget of
$727,322.

       The OIG is responsible for conducting audits and investigations relating to the programs
and operations of the FMC. Audits are conducted for the purpose of finding and preventing
fraud, waste and abuse, and promoting economy, efficiency and effectiveness within the agency.
OIG investigations seek out facts related to allegations of wrongdoing on the part of FMC
employees and individuals, or entities contracting with, or obtaining benefits from, the agency.
The Inspector General Act provides that the OIG shall have access to all agency records and may
subpoena records from entities outside of the agency in connection with an audit or investigation.

       The IG is required by law to prepare a report summarizing OIG audits and investigations
during the immediately preceding six-month period. The report is sent to the FMC
commissioners, the President of the Senate, the Speaker of the House and FMC’s appropriating
and authorizing committees. This dual reporting requirement helps to ensure the independence
of the OIG.




       April 1, 2012 – September 30, 2012                                         Page 2
                                AUDITS/EVALUATIONS 

       During this semiannual period, the OIG issued one evaluation of the agency lease of its
vehicle. We also began audits of the FMC’s financial statements and its transit subsidy program,
and began a program evaluation of information security pursuant to the Federal Information
Security Management Act. Details on these audits and evaluations are provided below.

                                   Issued Audits and Reviews

Audit Report Number                                           Subject of Audit


       OR12-02                                FMC Controls over the Procurement, Lease and
                                              Use of the Agency Vehicle


             Summary of Audits and Reviews Issued During the Current Period

       In OR12-02, FMC Controls over the Procurement, Lease and Use of the Agency
Vehicle, the objectives were to assess compliance with Federal regulations pertaining to the
procurement of the agency’s leased vehicle by FMC staff and determine whether controls are in
place to provide reasonable assurances that the vehicle is being properly used.


       We found that the agency did not comply with General Service Administration
requirements regarding vehicle size and fuel efficiency when procuring the vehicle, and
Executive Orders pertaining to work to home prohibitions and website reporting requirements.
The OIG noted a $100 reduction in monthly local travel cost but not enough to offset fully
loaded lease costs of approximately $1,500. Further, 91 percent of the recorded trips were made
with three or less employees in a vehicle that seats eight passengers.


       Importantly, our analysis was based on incomplete records. The log used to record trips
was missing approximately half of the vehicle miles appearing on the vehicle’s odometer.
The OIG made four recommendations to address the noted deficiencies, and identified the need


       April 1, 2012 – September 30, 2012                                         Page 3
to reassess whether an eight passenger SUV is needed to accomplish the agency’s mission, given
usage records and budgetary constraints.



                                     Draft Audits or Reviews

       The OIG issued draft audit report A13-01, Audit of the FMC Transit Benefit Program,
to management for comment in September, 2012. The objectives of the audit were to determine
whether there are controls in place to monitor the transit subsidy program and whether
employees are adhering to Commission policy and program guidelines. Management comments
are due on October 26, 2012 and the report will be issued immediately thereafter.



                               Reports with Fieldwork in Progress

       In A13-XX, Audit of FMC’s FY2012 Financial Statements, the audit objectives are to
opine on whether the FMC’s FY 2012 financial statements follow Generally Accepted
Accounting Principles and present fairly the financial position of the agency. The OIG will also
review internal controls over financial reporting and agency compliance with laws and
regulations. The statements to be audited are the Balance Sheets as of September 30, 2012 and
2011, and the related Statements of Net Cost, Statements of Changes in Net Position, Statements
of Budgetary Resources and Statements of Custodial Activity. This will be the ninth consecutive
year that the FMC prepared financial statements for audit.


       The OIG will also prepare a Management Letter that presents findings arising from the
review of the statements that are not material to the financial statements in the current year, but if
not addressed, could materially affect future statements.


       In A13-XX, Independent Evaluation of FMC’s Implementation of the Federal
Information Security Management Act (FISMA) for FY 2012, the objectives are to (1) evaluate
the agency’s information systems security program and assess compliance with FISMA and
related information security policies, procedures, standards and guidelines; (2) evaluate
       April 1, 2012 – September 30, 2012                                             Page 4
responses to prior recommendations, (3) perform a vulnerability assessment of the FMC network
using scanning tools from inside the FMC domain; and (4) review agency activities associated
with its responsibilities under the Privacy Act. This year the OIG will issue an independent
evaluation of the agency’s information security program and submit a report to the Office of
Management and Budget in response to specific security-related questions provided to all federal
departments and agencies subject to FISMA. We will provide the results of the internal scan to
OIT management for remediation and issue a Privacy Act assessment report.


       In A13-XX, Review of Expenditures for Personal Furnishings by the FMC Chairman,
the objective is to assess compliance with Sec. 711 of P.L. 111-8, as amended, the Omnibus
Appropriations Act of 2009, that prohibits presidential appointees from obligating or expending
funds in excess of $5,000 to furnish or redecorate their offices over the life of their appointment.



                                   Planned Audits or Reviews

       In A13-XX, Audit of the DataWatch Systems Physical Security, the OIG will assess
program costs, FMC oversight and how the agency compiles and uses information generated by
the data watch card readers.

                               INVESTIGATIVE ACTIVITIES

       The Inspector General Act of 1978, as amended, provides that the IG may receive and
investigate complaints or information concerning possible allegations of fraud, waste and abuse
occurring within FMC programs and operations. Matters of possible wrongdoing are referred to
the OIG in the form of allegations or complaints from a variety of sources, including FMC
employees, other government agencies and the general public. During this reporting period, the
OIG received five hotline complaints. We responded to two of the complaints and forwarded
three complaints to the appropriate FMC program areas for disposition. The OIG opened one
new investigation and referred one matter to prosecutorial authorities during this period.



       April 1, 2012 – September 30, 2012                                            Page 5
       Additionally, the OIG continues to work with the agency’s Office of the General Counsel
concerning an ongoing internet scam that attempts to defraud the public by, among other things,
using the agency’s official insignia to add legitimacy to correspondence with the targeted public.



                               OTHER OIG ACTIVITIES

                                     Review of Legislation

       As required by the Inspector General Act of 1978, as amended, the Office of Inspector
General routinely reviews proposed legislation and regulations. The purpose of these reviews is
to assess whether the proposed legislation or regulation (1) impacts the economy and efficiency
of FMC programs and operations, and (2) contains adequate internal controls to prevent and
detect fraud and abuse.


                Council of Inspectors General on Integrity and Efficiency Activities

       The Council of Inspectors General on Integrity and Efficiency (CIGIE) was established
by law as an independent entity by the Inspector General Reform Act of 2008 (P.L. 110-409) to:

   •   address integrity, economy and effectiveness issues that transcend individual government
       agencies; and
   •   increase the professionalism and effectiveness of personnel by developing policies,
       standards, and approaches to aid in the establishment of a well-trained and highly skilled
       workforce in the Office of Inspectors General.

       The CIGIE is comprised of all inspectors general that are Presidentially-appointed / Senate
confirmed and those that are appointed by agency heads (designated federal entities). The OIG
remains active in CIGIE operations. For example, the IG is a member of both the Legislation and
Integrity Committees. The Legislation Committee is a centralized point-of-contact and liaison for
CIGIE to ensure regular and ongoing communication with Congressional committees, committee
staff and the Government Accountability Office, regarding issues of common interest, and

       April 1, 2012 – September 30, 2012                                          Page 6
provides input to, and receives feedback from, the Congress on legislation affecting the IG
community as a whole. The Integrity Committee is charged with receiving, reviewing, and
referring for investigation, where appropriate, allegations of administrative (non-criminal)
misconduct against inspectors general and designated senior staff members of the OIG. The
Committee’s membership consists of the Federal Bureau of Investigation’s representative to the
CIGIE, who serves as its chairperson; the Special Counsel, Office of Special Counsel; the
Director of the Office of Government Ethics; and four federal inspectors general. The IG also
continued to participate in quarterly meetings with other Designated Federal Entity OIGs to
discuss issues, outcomes and solutions endemic to smaller IG offices.


       The Assistant Inspector General participates in Federal Audit Executive Council (FAEC)
activities. The FAEC is comprised of senior audit staff from agency OIGs that discuss and
coordinate issues affecting the federal audit community -- with special emphasis on audit policy
and operations of common interest to FAEC members. The Counsel to the Inspector General
participates in the Council of Counsels to the Inspector General (CCIG) activities. The CCIG
consists of senior counsel from agency OIGs who discuss various legal issues that affect the OIG
community.

       During this semiannual period, the OIG did not review legislation impacting the FMC;
however, we did review and comment on IG community-related legislation and other proposals
with a direct impact on office of inspectors general operations. We also worked with the
agency’s Office of the General Counsel to revise and issue Commission regulations pertaining to
OIG reporting responsibilities.

       During the reporting period, the OIG assisted two sister OIGs in providing audit report
quality control.

                                        Peer Review Activities

       Federal Offices of Inspector General are required by the IG Act to have a peer review
performed once every three years. These reviews are to be performed only by federal auditors.

       April 1, 2012 – September 30, 2012                                        Page 7
A committee of the CIGIE schedules the review to ensure that resources are available to perform
them and that OIGs do not conduct reciprocal reviews.

       The objectives of a peer review are to determine, for the audit function, whether an
effective quality control system has been established in the office and if policies, procedures and
applicable government auditing standards are being followed.

       The Dodd-Frank Wall Street Reform and Consumer Protection Act of 2010, Public Law
111-203, requires federal offices of inspectors general to include in their semiannual reports to
Congress an appendix containing the results of any peer review conducted by another OIG
during the reporting period, or, if no peer review was conducted within that reporting period, a
statement identifying the date of the last peer review conducted by another OIG. The most
recent peer review of the FMC OIG was issued on March 12, 2010, outside of this reporting
period. There are no unimplemented recommendations from this or any previous peer review.
The OIG is currently coordinating with a sister OIG to perform our next peer review, which will
be completed prior to the end of the next reporting period. The March 2010 peer review opinion
is available at www.fmc.gov/bureaus_offices/office_of_inspector_general.aspx.

                                  Significant Management Decisions

       If the IG disagrees with any significant management decision, Section 5(a)(12) of the
Inspector General Act requires that such disagreement be reported in the semiannual report.
Further, Section 5(a)(11) of the Act requires that any decision by management to change its
response to a significant resolved audit finding must also be disclosed in the semiannual report.

       For this reporting period, there were no significant management decisions made on which
the IG disagreed, and management did not revise an earlier decision on an OIG audit
recommendation.

                                         Access to Information

       The IG is to be provided with ready access to all agency records, information, or
assistance when conducting an investigation or audit. Section 6(b)(2) of the IG Act requires the
       April 1, 2012 – September 30, 2012                                          Page 8
IG to report to the agency head, without delay, if the IG believes that access to required
information, records or assistance has been unreasonably refused or otherwise has not been
provided. A summary of each report submitted to the agency head in compliance with Section
6(b)(2) must be provided in the semiannual report in accordance with Section 5(a)(5) of the Act.

        During the reporting period, the OIG did not encounter any difficulties in obtaining
assistance or access to agency records. Consequently, no report was issued by the IG to the
agency head in accordance with Section 6(b)(2) of the IG Act.

                                             Audit Resolution

        As of the end of this reporting period, all OIG audit recommendations for reports issued
in prior periods have been resolved. That is, management and the OIG have reached agreement
on what actions need to be taken. As noted below, 14 of these recommendations remain open
past one year. Importantly, all recommendations below were identified in the prior semiannual
report as “unimplemented over one year old.” Management has made little progress to address
them.

                                                    Report
                      Short Title                               Open      Elapsed Months
                                                     Issue
                                                                Rec’s      (as of 9/30/12)
                                                     Date
    1. FY 2010 Management Letter                   11/10/10       3               22
    2. Helpdesk Satisfaction Survey                 8/6/10        4               25
    3. User Fee Calculations                        5/27/10       1               28
    4. T&A – Capping Report                         5/14/10       2               28
    5. FISMA Evaluation for 2009                    1/28/10       1               32
    6. Bureau Timekeeping Practices                 6/30/09       1               39
    7. Agency Checkout Process                      1/12/09       1               44
    8. Accuracy of Enforcement Databases            3/31/06       1               78




        April 1, 2012 – September 30, 2012                                        Page 9
       The oldest recommendation (78 months) involves “Pay.gov,” a payment system available
to all federal agencies that enables agency customers to make secure electronic payments to the
agency directly from their bank accounts or by credit/debit cards. The FMC still processes the
majority of its transactions with customers, including regulated entities, by bank check. On
October 25, 2012, management informed the OIG that the “Pay.gov” contract has been awarded.
Requirements definition meetings between the Office of Information Technology, the
development contractor, and FMC bureaus and offices are in progress. The contractor has begun
development of the FMC to “Pay.gov” interface and is gathering additional information to
finalize FMC needs and processes. Pay.gov is scheduled to become operational in January 2013.
This will benefit, for example, license applicants who will be able to charge their application fee.
The OIG will continue to monitor the status of this recommendation to assess delays in
implementing this labor saving green alternative to current processing procedures.

       The second oldest recommendation involves revising existing employee check-out forms
to itemize all agency IT systems individuals must be removed from prior to departing the agency.
This would help to ensure access to sensitive agency data is safeguarded. The current form
requires (i) an “Information Technology” signoff and focuses on physical IT assets, to include
computer, monitor and phone card, and (ii) an Information Security Officer sign-off for a
security clearance. Neither requires the employee to identify special applications s/he can access
(payroll, procurement, licensing). These minor applications, often containing sensitive data,
would not necessarily be removed when terminating the network account.                Management
informed the OIG that it has “drafted” a Standard Operating Procedure pertaining to HelpDesk
procedures to address this recommendation. OIT is also gathering information from bureaus and
offices to provide a comprehensive list of the “universe of systems and benefits to which
employees have access” outside of FMC systems.




       April 1, 2012 – September 30, 2012                                            Page 10
                             Contacting the Office of Inspector General

       Employees and the public are encouraged to contact the OIG regarding any incidents of
possible waste, fraud or abuse occurring within FMC programs and operations.      The OIG
telephone number is (202) 523-5863. To report suspected wrongdoing, employees or the public
may call the OIG Hotline on (202) 523-5865. A confidential or anonymous message can be left
24 hours a day. Complaints or allegations of fraud, waste or abuse can also be emailed to
oig@fmc.gov or to https://www2.fmc.gov/oigcomplaints/ (if the complainant wishes to remain
anonymous).




       April 1, 2012 – September 30, 2012                                    Page 11
SUMMARY OF INSPECTOR GENERAL REPORTING REQUIREMENTS

IG Act Reference                 Reporting Requirement                  Pages

Section 4(a)(2)      Review of legislation and regulations               6

Section 5(a)(1)      Significant problems, abuses and deficiencies      None

Section 5(a)(3)      Prior significant recommendations on which
                                                                         9
                     corrective actions have not been made

Section 5(a)(4)      Matter referred to prosecutive authorities          5

Section 5(a)(5)      Summary of instances where information was
                                                                        None
                     refused

Section 5(a)(6)      List of audit reports by subject matter             3

Section 5(a)(7)      Summary of each particularly significant report     3

Section 5(a)(8)      Statistical tables showing number of reports and
                                                                         13
                     dollar value of questioned costs

Section 5(a)(9)      Statistical tables showing number of reports and
                     dollar value of recommendations that funds be       14
                     put to better use

Section 5(a)(10)     Summary of each audit issued before this
                     reporting period for which no management
                                                                        None
                     decision was made by the end of the reporting
                     period

Section 5(a)(11)     Significant revised management decisions           None

Section 5(a)(12)     Significant management decisions with which
                                                                        None
                     the inspector general disagrees




       April 1, 2012 – September 30, 2012                                       Page 12
                                          TABLE I 
 INSPECTOR GENERAL ISSUED REPORTS WITH QUESTIONED COSTS 

                                                                  Dollar Value

                                                              Questioned   Unsupported
                                                     Number     Costs         Costs
A. For which no management decision has been
   made by the commencement of the reporting           0          0              0
   period

B. Which were issued during the reporting period       0          0              0

    Subtotal (A + B)                                   0          0              0

C. For which a management decision was made
                                                       0          0              0
   during the reporting period
                                                                                 0
    (i)   dollar value of disallowed costs             0          0

    (ii) dollar value of costs not disallowed          0          0              0

D. For which no management decision has been
                                                       0          0              0
   made by the end of the reporting period

E. Reports for which no management decision
                                                       0          0              0
   was made within six months of issuance




     April 1, 2012 – September 30, 2012                                    Page 13
                                        TABLE II 
INSPECTOR GENERAL ISSUED REPORTS WITH RECOMMENDATIONS
            THAT FUNDS BE PUT TO BETTER USE 


                                                           Number   Dollar Value
  A. For which no management decision has been made
                                                             0           0
     by the commencement of the reporting period

  B. Which were issued during the reporting period           0           0

      Subtotal (A + B)                                       0           0

  C. For which a management decision was made during
                                                             0           0
     the reporting period
                                                                         0
      (i)   dollar value of recommendations that were        0
            agreed to by management

      (ii) dollar value of recommendations that were not     0           0
           agreed to by management

  D. For which no management decision has been made
                                                             0           0
     by the end of the reporting period

  E. Reports for which no management decision was
                                                             0           0
     made within six months of issuance




   April 1, 2012 – September 30, 2012                                   Page 14
          HOTLINE COMPLAINTS
The success of the OIG mission to prevent fraud, waste and abuse
 depends on the cooperation of FMC employees and the public.

A COMPLAINT CAN BE REPORTED BY CALLING OUR 24-HR DIRECT LINE


                            (202) 523-5865
                                E-MAIL ADDRESS:

     https://www2.fmc.gov/oigcomplaints/
         TO PLACE A COMPLAINT IN WRITING PLEASE MAIL TO:

                Federal Maritime Commission
                Office of Inspector General
                Room 1054
                800 North Capitol Street, NW
                Washington, DC 20573
                To Be Opened By the IG Only

  THE INFORMATION YOU PROVIDE IS CONFIDENTIAL AND YOU CAN BE ANONYMOUS


          HOWEVER, CALLERS ARE ENCOURAGED TO ASSIST THE INSPECTOR GENERAL BY
    SUPPLYING INFORMATION AS TO HOW THEY MAY BE CONTACTED FOR ADDITIONAL INFORMATION
